              U.S. Department of Energy
              Office of Inspector General
              Office of Inspections and Special Inquiries




Inspection Report

Sandia National Laboratory-California
Procurement Card Program




DOE/IG-0754                                  January 2007
SANDIA NATIONAL LABORATORY-CALIFORNIA
PROCUREMENT CARD PROGRAM



TABLE OF
CONTENTS


              OVERVIEW

              Introduction and Objective       1

              Observations and Conclusions     2


              DETAILS OF FINDINGS

              Internal Controls Not Enforced   3

              Questionable Purchases           5

              Number of Card Holders           8


              RECOMMENDATIONS                  8


              MANAGEMENT COMMENTS              9


              INSPECTOR COMMENTS               9


              APPENDICES

              A. Scope and Methodology         10

              B. Management Comments           11

              C. Prior OIG Reports             16
Overview

INTRODUCTION    The mission of the Department of Energy’s (DOE’s) Sandia
AND OBJECTIVE   National Laboratory-California (Sandia-CA) includes applying
                advanced science and engineering to support the United States’
                deterrence policy by ensuring the nuclear weapons stockpile is
                safe, reducing the proliferation of weapons of mass destruction,
                and enhancing the surety of energy. Sandia-CA is managed by
                Lockheed Martin Corporation for the National Nuclear Security
                Administration (NNSA). Sandia-CA employs about 900 people.

                In support of its mission, Sandia-CA procures more than
                $40 million in goods and services annually. Employees at Sandia-
                CA have several procurement methods available to them, to
                include the Procurement Card Program. This Program was
                established to simplify the procurement of low value,
                commercially available goods and services without going through
                a more protracted and costly competitive procurement process.
                Sandia-CA’s procurement card activities are administered by the
                Sandia National Laboratory-New Mexico (Sandia-NM) corporate
                organization. There are about 400 procurement card holders at
                Sandia-CA, with most limited to a spending authority of no more
                than $5,000 per transaction and $25,000 per month. However,
                some employees in the Sandia-CA Procurement Department have
                been authorized by Sandia management to spend as much as
                $250,000 to $1 million per monthly billing cycle.

                Given the wide-spread use of procurement cards throughout the
                Department and the potential for abuse, the Office of Inspector
                General (OIG) has established a proactive initiative to review
                procurement card programs at Department facilities. Appendix C
                contains a partial listing of prior OIG reports related to
                procurement card reviews. As part of the OIG initiative, we
                reviewed the Procurement Card Program at Sandia-CA. The
                objective of this inspection was to determine whether Sandia-CA’s
                internal controls ensured that purchases made using procurement
                cards were in accordance with applicable policies and procedures.
                Our inspection methodology included reviewing all of
                Sandia-CA’s procurement card transactions for January through
                November 2005. There were 21,568 transactions valued at
                $12.7 million.




Page 1                                         Sandia National Laboratory-
                                               California Procurement Card
                                               Program
OBSERVATIONS AND   We concluded that Sandia-CA’s internal controls did not ensure
CONCLUSIONS        that purchases made using procurement cards were in accordance
                   with applicable policies and procedures. Specifically, we found
                   that:

                   •   Internal controls established to prevent waste or abuse were not
                       adhered to in many instances. Sandia-CA managers approved
                       571 transactions valued at $272,009 that lacked the required
                       description of the items procured. Further, Sandia-CA
                       employees purchased “restricted items” without obtaining the
                       required advance permission, and these purchases were
                       subsequently approved by Sandia-CA managers without that
                       permission.

                   •   Sandia-CA employees and visitors may have inappropriately
                       benefited from purchases of items of questionable allowability
                       amounting to $102,277. This included 218 purchases of
                       catered meals amounting to $89,649 and 56 purchases totaling
                       $12,628 for items such as massagers, water bottles, and
                       “coins.”

                   •   Approximately 44 percent of Sandia-CA employees had been
                       issued procurement cards. We do not believe this is consistent
                       with guidance pertaining to procurement card internal controls,
                       which calls for the number of procurement card users to be
                       limited to the minimum necessary to carry out activity
                       missions.

                   Although the number of problem transactions we identified was
                   relatively small when compared to the total number of items
                   purchased during the sampled timeframe, we believe actions can
                   readily be taken to enhance Sandia-CA’s Procurement Card
                   Program and, thus, decrease the future risk of waste or abuse.




Page 2                                              Observations and Conclusions
Details of Findings

INTERNAL CONTROLS      We found that internal controls established to prevent waste or
NOT ENFORCED           abuse were not adhered to in many instances. Specifically,
                       Sandia-CA managers approved 571 transactions valued at
                       $272,009 that lacked the required description of the items
                       procured. Further, Sandia-CA employees purchased “restricted
                       items” without obtaining the required advance permission, and
                       these purchases were subsequently approved by Sandia-CA
                       managers without that permission.

Transaction Approval   A requirement of Government funded credit card programs is that
                       approving officials must perform a monthly validation/
                       reconciliation of their subordinates’ procurement card purchases.
                       The purpose of the validation/reconciliation is to ensure that only
                       authorized purchases are made, that the purchases are properly
                       charged to the appropriate cost account, and that there is a business
                       necessity associated with the item(s) procured.

                       We conducted a basic review of all 21,568 procurement card
                       transactions made by Sandia-CA card holders during January
                       through November 2005. Additionally, we performed data mining
                       and judgmental sampling that focused on specific types of
                       transactions.

                       We identified a total of 571 purchases valued at $272,009 where
                       the descriptions of the purchases were left blank, so it was not
                       possible to identify the items purchased. Of those, one card user
                       left 73 transaction descriptions blank amounting to $63,933, while
                       another card user left 133 descriptions blank amounting to
                       $60,810. We interviewed some of the procurement card users who
                       failed to provide an item description. In one case, an employee
                       told us he accidentally used his procurement card to buy items
                       from an on-line adult novelty store, while another employee said
                       he accidentally used his procurement card to purchase a personal
                       meal at a restaurant. In both instances, the individuals’ supervisors
                       approved the purchases despite the blank description field. Both
                       employees had reimbursed Sandia-CA for the purchases prior to
                       our interviews.

                       We also observed that there were many other procurement card
                       purchases where the item description was so vague that it was
                       uncertain how the managers knew what they were approving or
                       what the business purpose of the item was. For example, we noted
                       a $280 purchase from an internet retailer described as “electronics”
                       and a $9,800 purchase from another internet retailer described as
                       “software.”



Page 3                                                                Details of Findings
                   After our fieldwork, a Sandia official told us that an automated
                   message had been sent to all card holders who had not provided
                   transaction description information for transactions since
                   October 1, 2005, requiring them to do so and resubmit the
                   transactions for re-approval by their managers. The same message
                   also required managers to reject any future transactions that did not
                   have description information.

Procurement of     Sandia’s Procurement Card Manual contains a list of restricted
Restricted Items   items that employees are prohibited from purchasing without
                   specific permission, yet some purchases were made and approved
                   without this permission. Examples of some of the purchases of
                   restricted items are shown in Table 1.

                       Cost         Restricted Items              Restricted Item
                                        Purchased             Definition/Prohibition
                    $ 140        Office Plant                Personal use
                    $   425      Massagers for gift bags     Gifts
                    $ 500        Deposit for celebration     Food
                    $ 1,013      Duffle bags for Admin.      Gifts
                                 Symposium
                    $ 1,728      Projector                   Projectors, greater than
                                                             $1,000
                    $ 6,705      Hand held radios            Radios, regardless of cost
                    $ 7,828      Camera and peripherals      Cameras greater than
                                                             $1,000
                    $ 12,836     Tent, chair and linen       Tent rentals
                                 rental

                                                  Table 1

                   The Sandia Procurement Card Manual states that the intent of the
                   Restricted Items List is to establish process controls to ensure
                   compliance with corporate business rules, employee safety,
                   national security, or protection of major assets. The Restricted
                   Items List prohibits the use of a procurement card for certain types
                   of items such as ammunition, cameras costing more than $1,000,
                   computers, food (excluding business meals), radios, tent rentals,
                   and unallowable costs, unless a waiver is provided by Sandia-NM.
                   Unallowable costs are defined as costs that have been determined
                   to be unreasonable or unallocable to the cost account the item is
                   charged to and can include costs associated with items prohibited
                   by law or regulation. The Sandia Financial Manual states that
                   unallowable costs cannot be charged to the DOE contract and must
                   either be charged to the Lockheed Martin fee (corporate earnings)
                   or paid by the employee (as a personal expense).


Page 4                                                            Details of Findings
                 A “Sandia Procurement Center Work Guidance” document states
                 that in special circumstances and with proper justification card
                 holders can be given permission to purchase restricted items and
                 that Sandia-NM Procurement Card Program officials will review
                 each request and make a determination based on judgment as to the
                 business necessity of such purchases. We interviewed 18 Sandia-
                 CA card holders who had made purchases of items from the
                 Restricted Items List. Only three people said that they had
                 received permission from Sandia–NM to make restricted item
                 purchases. The other individuals said they did not receive
                 permission from Sandia-NM Procurement Card Program officials
                 to make these purchases. Despite this lack of permission, these
                 purchases were approved by their supervisors.

                 We determined that an August 2004 Government Accountability
                 Office (GAO) report entitled “Sandia National Laboratories:
                 Further Improvements Needed to Strengthen Controls Over the
                 Purchase Card Program,” had a related finding that, although
                 Sandia required purchases of restricted items to be pre-approved,
                 Sandia did not require documentation of such approvals for the
                 majority of the review period (2002-2003). Consequently, neither
                 GAO nor Sandia could determine if that control was effective. We
                 noted at the time of our review that Sandia still did not specifically
                 require that permission to purchase a restricted item be in writing.
                 In light of the continuing concerns we identified, we believe it
                 would be beneficial for Sandia to require written permission for
                 purchases of items on the Restricted Items List.

QUESTIONABLE     We found that Sandia-CA employees and visitors may have
PURCHASES        inappropriately benefited from purchases of items of questionable
                 allowability amounting to $102,277. This included 218 purchases
                 of catered meals totaling $89,649 and 56 purchases totaling
                 $12,628 for items such as massagers, water bottles, and “coins.”

Federal Policy   Federal policy generally prohibits the use of Government funds to
for Meal Cost    pay for meals and refreshments unless a person is on official travel,
Reimbursement    as these purchases are considered to be a personal subsistence
                 expense. Specifically, the Comptroller General stated that there is
                 a realization that many agency officials would like to approve the
                 use of appropriations to pay for food and refreshments at
                 Government sponsored meetings and conferences, including
                 meetings to discuss internal operational and other day-to-day
                 matters of agency business, and that the rationale for paying for
                 such meals is to follow common business practices of the private
                 sector. However, the Comptroller General also stated that an
                 expenditure of public funds must be anchored in existing law, not



Page 5                                                           Details of Findings
                                the practices and conventions of the private sector, and that
                                Government funds are not available for the costs associated with
                                meals because meals and other such expenses are considered
                                personal in nature. 1 In other decisions, the Comptroller General
                                has elaborated on the prohibition on using Government funds to
                                pay for food by stating that, generally, appropriations are not
                                available to provide food to employees at their duty stations. 2 In
                                addition, the Comptroller General has specifically denied claims
                                for reimbursement for subsistence expenses at employees’ duty
                                stations where the employees were escorting or participating in
                                meetings with visiting officials 3 .

Meals                           During the 11-month period of time covered by our inspection
                                sample, 218 catered meals totaling $89,649 were purchased using
                                procurement cards. This was an average of nearly one meal per
                                business day where food was provided through the use of
                                procurement cards at a variety of events that included in-house
                                team celebrations, new employee orientation, business meetings,
                                and guest visits. The attendees benefiting from these catered meals
                                included Federal and contractor employees, industry partners,
                                guests, and retirees. A sample of the meal events paid for by
                                procurement card is shown in Table 2.

                                                      Event                               Cost
                                  Catering for congressional visit                    $ 413
                                  Homeland security meeting                           $    575
                                  NNSA conference                                     $    889
                                  Sandia media event                                  $ 2,278
                                  Townhall meeting                                    $ 3,803
                                  Catering for anniversary reunion                    $ 4,542
                                  Awards ceremony                                     $ 5,690
                                  Catering for anniversary symposium                  $ 10,988

                                                                 Table 2

                                We determined that the Sandia Financial Manual allows for
                                refreshments and business meals to be provided at Government
                                expense only during a business meeting, subject to certain
                                considerations regarding specific categories of recipients. Sandia
                                has defined the following requirements for providing
                                meals/refreshments at business meetings:

1
  Comptroller General Decisions B-288266 (2003) and B-235163.11 (1996); 65 Comp. Gen.16 (1985); 47 Comp.
Gen. 657 (1968).
2
  68 Comp. Gen. 604 (1989).
3
  Comptroller General Decision B-247563.4 (1996).



Page 6                                                                             Details of Findings
                       (1) “The meal/refreshment is integral to a meeting
                           or business-related conference where business is
                           carried on”; and,
                       (2) “Attendance at the meal is necessary to full
                           participation, i.e., employees are not free to take
                           meals elsewhere without missing essential
                           formal discussions.”

                However, we concluded that, given the Comptroller
                General decisions, even the provision of meals at
                Government expense during business meetings may be
                unallowable. Thus, we believe the DOE Sandia
                Contracting Officer should review (1) the Sandia meal
                policy for consistency with the Comptroller General
                Decisions and (2) Sandia-CA’s meal costs for allowability.

Gift/Souvenir   From our sample we also identified 56 procurement card
Purchases       transactions for gifts and souvenir items that were valued at
                $12,628. In many instances, the procurement card users said that
                they were directed by their managers (who would be the
                procurement card users’ approving officials and would reconcile
                and authorize the procurement transactions) to procure these items.
                A sample of gift or souvenir items purchased during our sample
                period is shown in Table 3.

                                        Item                            Cost
                 Movie tickets                                       $ 320
                 Blinking buttons with Sandia name                   $ 383
                 Coffee mugs                                         $ 423
                 Glasses for anniversary symposium                   $ 582
                 Visors, water bottles, etc., for visitor program    $ 837
                 Souvenir coins                                      $ 1,423
                 Promotional souvenirs for Sandia                    $ 1,882
                 Sandia souvenir apparel                             $ 2,786

                                               Table 3

                Specific to the souvenir apparel, we were told that it consisted of
                shirts and other clothing items that had the Sandia logo
                embroidered on them and that they were purchased for resale. We
                were also told that the proceeds were supposed to be used to
                reimburse the Government. We reviewed a “Chargebacks Detail
                by Task/Chg” accounting document that indicated reimbursements
                had been deposited for the sale of at least some of the apparel.




Page 7                                                          Details of Findings
                                      We could find no authorization for Sandia-CA to spend
                                      Government funds on gifts or souvenirs, even if reimbursements
                                      were made. The Sandia Financial Manual states that “The cost of
                                      gifts is generally unallowable, regardless of amount,” and that gifts
                                      to non-employees are unallowable and must be purchased with
                                      Lockheed Martin fee money. Additionally, the Federal
                                      Acquisition Regulation 4 states that unallowable public relations
                                      and advertising costs include the costs of corporate celebrations;
                                      promotional materials that are designed to call favorable attention
                                      to the contractor and its activities; and souvenirs, imprinted
                                      clothing, buttons, and other mementos provided to customers or
                                      the public.

NUMBER OF                             We found that approximately 44 percent of all Sandia-CA
CARD HOLDERS                          employees had been issued procurement cards. We do not believe
                                      this is consistent with guidance pertaining to procurement card
                                      internal controls. Departmental guidelines require that heads of
                                      contracting activities limit the number of procurement card users to
                                      the minimum necessary to carry out the activity’s missions.
                                      Additionally, a GAO Audit Guide states that the total number of
                                      card holders in an organization is one factor that should be
                                      considered in limiting the potential loss to the organization from
                                      fraudulent, improper, and abusive purchases. The Guide also states
                                      that by limiting the number of procurement cards and related limits
                                      to the levels necessary to meet operational requirements, an
                                      organization can better manage and control its procurement card
                                      program.

RECOMMENDATIONS                       We recommend the Manager, Sandia Site Office:

                                      1. Direct the Sandia Site Office Contracting Officer to make a
                                         cost allowability determination for the $102,277 in questioned
                                         costs associated with purchases by Sandia-CA employees, and
                                         recover funds that are determined to be unallowable.

                                      2. Direct the Sandia Site Office Contracting Officer to conduct a
                                         review of the Sandia Financial Manual meal policy to ensure
                                         that it is consistent with Comptroller General Decisions.

                                      3. Direct Sandia-NM to conduct a review of the $272,009 in
                                         procurement card transactions that lacked a description to
                                         ensure that an appropriate business necessity existed for these
                                         purchases, and recover funds that are determined to be
                                         unallowable.


4
    Section 31.205-1 “Public relations and advertising costs.”


Page 8                                                                               Recommendations
             4. Ensure that Sandia-CA enforces the requirement that all
                purchases made with procurement cards contain a clearly stated
                description that would allow a determination of business
                necessity.

             5. Require that permission for Sandia-NM and Sandia-CA
                procurement card holders to purchase items from the Restricted
                Items List be in writing and be retained for an appropriate
                period of time.

             6. Consider requiring that Sandia-NM procurement card officials
                implement a data mining program at Sandia-CA regarding
                restricted items to ensure that such purchases are appropriately
                approved.

             7. Require that Sandia-CA reduce the number of procurement
                card holders to facilitate improved oversight of procurement
                card transactions.

MANAGEMENT   In comments on a draft of this report, management concurred with
COMMENTS     the report recommendations and identified corrective actions that
             have been or will be taken to address them. Management’s
             verbatim comments are included at Appendix B.

INSPECTOR    We found management’s comments to be responsive to our report
COMMENTS     recommendations.




Page 9                              Management and Inspector Comments
Appendix A

SCOPE AND     The fieldwork for this inspection was conducted primarily between
METHODOLOGY   February and May 2006. As part of this inspection, we visited the
              Sandia-CA and Sandia-NM sites to interview NNSA and
              contractor officials. We also conducted interviews of procurement
              card users and examined documents and records at Sandia-CA and
              Sandia-NM. Our document review and analysis included:

              •   Sandia-CA procurement card transaction records for January
                  through November 2005;

              •   Procurement card transaction invoices;

              •   2005 Procurement Card Self-Assessment;

              •   Sandia Financial and Procurement Manuals;

              •   Sandia Procurement Center Work Guidance documentation;

              •   Decisions by the Comptroller General of the United States;

              •   Prior DOE Office of Inspector General reports;

              •   GAO documentation; and,

              •   The Federal Acquisition Regulation, 48 Code of Federal
                  Regulations.

              Also, pursuant to the Government Performance and Results Act of
              1993, we examined performance measurement processes as they
              related to the Sandia-CA procurement card program.

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 10                                              Scope and Methodology
Appendix B




Page 11      Management Comments
Appendix B          (continued)




Page 12      Management Comments
Appendix B          (continued)




Page 13      Management Comments
Appendix B          (continued)




Page 14      Management Comments
Appendix B          (continued)




Page 15      Management Comments
Appendix C

PRIOR OIG REPORTS   The following are previously issued OIG reports that are related to
                    procurement cards.

                    “Selected Purchase Card Transactions at the Nevada Site Office”
                    (INS-O-06-01, November 2005). This report found that
                    procurement card transactions were not always reviewed and
                    approved by designated approving officials; procurement card
                    holders and designated approving officials were not completing
                    refresher training within required timeframes; there were
                    inconsistencies with how the procurement card program was
                    administered; and monthly bank statements were not reconciled
                    with procurement card financial records.

                    “The Department’s Federal Purchase Card Program at
                    Headquarters” (DOE/IG-0675, February 2005). This report found
                    that procurement card users did not take full advantage of an
                    automated procurement system, resulting in inefficiencies;
                    acquired accountable items that were not then entered into the
                    Department’s property management system; exceeded documented
                    purchasing authority and did not demonstrate a continued need for
                    a procurement card; and acquired several items that reflected a
                    questionable use of the procurement card.

                    “Los Alamos National Laboratory’s Purchase Card Program
                    Corrective Actions” (DOE/IG-0644, April 2004). This report
                    found that the Laboratory could enhance guidance to procurement
                    card holders by clarifying the rationale for items that should not be
                    acquired by procurement card and the processes for seeking
                    exceptions to those restrictions; could automate its data analysis
                    techniques to identify purchases that did not comply with internal
                    guidance; and could enhance periodic reviews of card holder
                    activities by improving follow-up actions to correct noted
                    problems and imposing sanctions for departures from established
                    procedures.

                    “Sandia National Laboratories Procurement Card Program” (WR-
                    B-02-03, August 2002). This report found that Sandia
                    procurement card holders purchased restricted items, split
                    purchases to avoid transaction limits, and allowed unauthorized
                    users to make purchases.

                    “U.S. Department of Energy’s Purchase Card Programs - Lessons
                    Learned” (I01OP001, February 2002). This report identified
                    lessons learned that can be used to improve the operation and




Page 16                                                             Prior OIG Reports
Appendix C                                                     (continued)

             performance of the procurement card programs, including:
             developing comprehensive guidelines for procurement card
             processes; clearly delineating allowable and non-allowable items;
             taking aggressive steps to assure compliance with established
             policies and procedures; and establishing a system that provides a
             full accounting of the number of card holders, card holder status,
             and spending limitations.




Page 17                                                    Prior OIG Reports
                                                                    IG Report No. DOE/IG-0754


                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message clearer to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Ms. Judy Garland-Smith at (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
